 

 

OFFICE OF THE ARIZONA ATTORNEY GENERAL ORAMEL H. (O.H.) SKINNER

MARK BRNOVICH SOLICITOR GENERAL
ATTORNEY GENERAL APPEALS AND CONSTITUTIONAL LITIGATION DIVISION DirEcT PHONE No.: (602) 542-8327
SPECIAL LITIGATION SECTION O.H.SKINNER@AZAG.GOV
April 30, 2020

By Electronic Filing and Electronic Mail

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE

Washington, D.C. 20543
sharris@supremecourt.gov

Re: Brnovich, et al., v. The Democratic National Committee, et al., No. 19-1257
Mr. Harris:

| represent the petitioners in the above-captioned case. Under Rule 37.2(a), petitioner
consents to the filing of amicus briefs in support of either or neither party at the petition stage, if
filed within the time allowed by the Court's rules.

Pursuant to the Court’s recent order, and the prior agreement of the parties, | am

sending this by electronic mail in addition to filing electronically, with no hard copy to follow.
Should you wish me to send a hard copy of the letter, | am happy to do so.

 

Counsel for Petitioners

cc: Marc Erik Elias
Bruce V. Spiva
Counsel for Respondents (by electronic mail)

Jessica Ring Amunson

Sam Hirsch

Counsel for Respondent Katie Hobbs, in her
official capacity as Secretary of State of Arizona
(by electronic mail)

Brett William Johnson
Counsel for Intervenors Below (by electronic mail)

2005 NortH CENTRAL AVENUE, PHOENIX, AZ 85004-1592 © PHONE 602.542.5025 © FAX 602.542.8308 © Www.AZAG.GOV
